Report No. D-2011-031                 January 6, 2011




        Upgrade/Renovate Clinic Project at Ellsworth
          Air Force Base, South Dakota Generally
           Complied with the American Recovery
                   and Reinvestment Act
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                   Air Force Base
AFMSA                 Air Force Medical Support Agency
FAR                   Federal Acquisition Regulation
FBO                   Federal Business Opportunities
FPDS                  Federal Procurement Data System – Next Generation
MATOC                 Multiple Award Task Order Contract
OMB                   Office of Management and Budget
QMAD                  Quantitative Methods and Analysis Division
TMA                   TRICARE Management Activity
USACE                 United States Army Corps of Engineers
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON , VIRGINIA 22202-4704



                                                                           January 6, 20 II



MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH
                   AFFAIRS)
              ASSISTANT SECRETARY OF THE AIR FORCE
                   (FINANCIAL MANAGEMENT AND COMPTROLLER)
              COMMANDING GENERAL, U.S. ARMY CORPS OF
                    ENGINEERS

SUBJECT: Upgrade/Renovate Clinic Project* at Ellsworth Air Force Base, South
         Dakota Generally Complied with the American Recovery and Reinvestment
         Act (Report No. D-2011-031)

We are providing this report for your information and use. We performed this audit in
response to the requirements of Public Law 111-5, "American Recovery and
Reinvestment Act of2009" (Recovery Act), February 17,2009. We determined that the
Upgrade/Renovate Clinic Project addressed valid requirements and generally complied
with Recovery Act requirements. We considered management comments on a discussion
draft of this report in preparing the final report. No additional comments are required .

We appreciate thc courtesies extended to the staff. Please direct questions to
Mr. Michael Joseph at (757) 872-4698.




                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support




*The Upgrade/Renovate Clinic Project actually encompasses three projects: Recovery
Act Projects 109, 110, and 111. For the purposes of this report, we refer to them
collectively as one project: the Upgrade/Renovate Clinic Project.
   Report No. D-2011-031 (Project No. D2009-D000LF-0298.001)                      January 6, 2011

                 Results in Brief: Upgrade/Renovate Clinic
                 Project at Ellsworth Air Force Base, South
                 Dakota Generally Complied with the American
                 Recovery and Reinvestment Act
                                                       Task Order Contract, we believe the risk
What We Did                                            associated with the lack of supporting
Our overall objective was to evaluate DoD’s            documentation for $1.5 million of the cost
implementation of Public Law 111-5,                    estimate was mitigated and should not impede
“American Recovery and Reinvestment Act                project implementation.
of 2009,” February 17, 2009, (Recovery Act).
Specifically, we reviewed the planning, funding,       The contract and task order included all possible
execution, and tracking and reporting of               Recovery Act Buy American Act clauses.
Recovery Act Projects 109, 110, and 111,               During our review, personnel at USACE Little
implemented collectively under one Air Force           Rock modified the task order to include only
project entitled the “Upgrade/Renovate Clinic          applicable Buy American Act clauses.
Project.” The Upgrade/Renovate Clinic Project
at Ellsworth Air Force Base (AFB) cost                 What We Recommend
$16.5 million. We determined whether the               This report contains no recommendations.
efforts of personnel at the Air Force Medical
Support Agency (AFMSA), the United States              Management Comments
Army Corps of Engineers (USACE), and                   In preparing this report, we considered USACE
activities at Ellsworth AFB complied with              comments on a discussion draft report.
Recovery Act requirements and subsequent               Personnel from AFMSA and Ellsworth AFB
related guidance.                                      had no comments on the discussion draft report.

What We Found                                          Figure 1. 28th Medical Group Clinic at
We determined that the Upgrade/Renovate                Ellsworth Air Force Base, South Dakota
Clinic Project addressed valid requirements.
Personnel at the 28th Civil Engineer Squadron,
Ellsworth AFB; AFMSA; USACE
Headquarters, Fort Worth District, and Little
Rock District generally planned and executed
the project as required by the Recovery Act.
Also, personnel at USACE Headquarters
distributed Recovery Act funds to support the
project in a timely manner, and the contractor
reported information required by the Recovery
Act.

The $16.5 million project cost estimate was
generally reasonable based on supporting
documentation; however, $1.5 million of the
cost estimate was not supported. Because the           Source: Facility Manager, 28th Medical Group
task order was awarded competitively and on a          Clinic, Ellsworth Air Force Base, SD
firm-fixed-price basis under a Multiple Award

                                                   i
Table of Contents

Introduction                                                             1

      Objective                                                          1
      Background                                                         1
      Review of Internal Controls                                        3

Audit Results. Upgrade/Renovate Clinic Project                           4

      Planning: Project Needed and Generally Supported                   4
      Funding: Recovery Act Funds Distributed Timely                     5
      Execution: Project Execution Adequate                              5
      Tracking and Reporting: Contractor Reported Required Information   6

Conclusion: Project Implementation Generally Complied with
Recovery Act Requirements                                                7

Appendix

      Scope and Methodology                                              8
             Use of Technical Assistance                                 8
             Use of Computer-Processed Data                              9
             Prior Audit Coverage                                        9
Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009 (Recovery Act).
Specifically, we reviewed the planning, funding, execution, and tracking and reporting
phases of three Recovery Act Projects—109, 110, and 111—implemented collectively
under one Air Force project entitled “Upgrade/Renovate Clinic Project” at Ellsworth Air
Force Base (AFB), South Dakota. We determined whether the efforts of the Air Force
Medical Support Agency (AFMSA), the United States Army Corps of
Engineers (USACE), and activities at Ellsworth AFB complied with Recovery Act
requirements, Office of Management and Budget (OMB) Memorandum M-09-10, “Initial
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
February 18, 2009, and subsequent related guidance.

The Recovery Act and OMB guidance requires projects to be monitored and reviewed.
We grouped these requirements into the following four phases: (1) planning, (2) funding,
(3) execution, and (4) tracking and reporting. See the appendix for a discussion of our
scope and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DoD received approximately $7.16 billion 1 in Recovery Act funds for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans for the
Recovery Act, which listed DoD projects that will receive Recovery Act funds. The
Assistant Secretary of Defense (Health Affairs) received $400 million of Recovery Act
funds for Defense Health Program Operations and Maintenance projects. Of the
$400 million, TRICARE Management Activity (TMA) personnel allocated $16.5 million
to Project 109, “Modernize Outpatient Clinical Spaces,” Project 110, “Repair and
Upgrade HVAC, Sanitary Sewer, Hot Water Systems in Clinic,” and Project 111, “Life


1
 DoD originally received $7.42 billion; however, Public Law 111-226, Title III, “Rescissions,” rescinded
$260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for U.S. Army Corps of
Engineers civil works projects.


                                                   1
Safety Upgrade in Outpatient Clinic,” at Ellsworth AFB, South Dakota. The three
Recovery Act projects were implemented collectively under one Air Force project
entitled “Upgrade/Renovate Clinic Project.” Table 1 lists the amounts allocated to each
of the three projects.

Table 1. TMA Allocated Funds to Support Recovery Act, Defense Health Program
     Operations and Maintenance Projects at Ellsworth AFB, South Dakota
                    Recovery Act Project                     Amount
                                                          (in thousands)
    Modernize Outpatient Clinical Spaces (109)               $13,250
    Repair and Upgrade HVAC, Sanitary Sewer, Hot Water          2,900
    Systems in Clinic (110)
    Life Safety Upgrade in Outpatient Clinic (111)                350
        Total                                                $16,500

On October 31, 2009, personnel at USACE Little Rock District awarded a task order for
supplies and services under a competitive Multiple Award Task Order Contract
(MATOC) in the amount of $15,622,387, with each of the three projects listed as a
separate line item. The overall Upgrade/Renovate Clinic Project included a phased,
multi-year repair effort to optimize primary care and ancillary services. In addition, the
project will upgrade communication infrastructure, heating and air conditioning systems,
windows, sewer and plumbing systems, and provide structural interior design for the
facility’s first floor. The steam plant will be deactivated and a domestic heating and hot
water system provided. The clinic’s third floor and portions of the second floor will be
decommissioned. The planning effort includes requirements to comply with applicable
Uniform Facility Codes and National Fire Protection Association building codes and
restrictions. Additionally, the project will incorporate applicable Air Force and Air
Combat Command objectives for high-performance, green building issues such as
addressing water use, reducing energy use, commissioning building, selecting materials,
and maximizing indoor environmental quality. Another goal of the project is to increase
staff efficiency by realigning the facility based on the Air Force Surgeon General Primary
Care Optimization Model.

28th Medical Group, Ellsworth AFB Mission
The mission of the 28th Medical Group at Ellsworth AFB is to provide a fit and healthy
force for global response. According to the 2008 Economic Impact Analysis, the medical
group provided a variety of healthcare services to approximately 7,700 active duty
service members and dependents. In addition, about 3,800 military retirees in western
South Dakota are eligible to receive care. The medical group provides such services as
family practice, optometry, dental, flight medicine, mental health, physical therapy,
laboratory, pharmacy, and radiology.




                                            2
Project Support
Personnel at USACE provided contracting and project management services in support of
the Upgrade/Renovate Clinic Project. AFMSA personnel stated the responsibility for
support services initially was assigned to personnel at USACE Fort Worth District and
later transferred to personnel at USACE Little Rock District. These services included
awarding contracts for the Recovery Act project to upgrade and renovate the clinic and
assigning project managers to oversee the contracted work.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified an internal control
weakness in the administration of the Upgrade/Renovate Clinic Project as defined by
DoD Instruction 5010.40. Personnel at USACE Little Rock District initially incorporated
several inappropriate Recovery Act Federal Acquisition Regulation (FAR) clauses into
contracting actions, as discussed in detail in the Audit Results section of this report.
Management completed corrective actions during the audit, so we make no
recommendations in this report. We will provide a copy of the report to the senior
official in charge of internal controls for USACE Headquarters.




                                           3
Audit Results. Upgrade/Renovate Clinic
Project
The Upgrade/Renovate Clinic Project was a valid requirement, and personnel at the
28th Civil Engineer Squadron and AFMSA generally planned the project as required by
the Recovery Act; however, $1.5 million of the $16.5 million project cost estimate was
not supported by documentation. USACE Headquarters personnel distributed Recovery
Act funds in a timely manner, and contracting personnel ensured that contracting actions
for the project met Recovery Act requirements. Also, the contractor reported information
required by the Recovery Act. Although the initial task order improperly included
additional Buy American Act FAR clauses, USACE Little Rock District personnel
modified the task order to require only the applicable clauses.

Planning: Project Needed and Generally Supported
According to project planning documents, modernizing the outpatient clinical spaces at
Ellsworth AFB will reconfigure and renovate portions of the facility and will align
ancillary, support, and administrative functions in accordance with DoD criteria for
medical space planning. The outpatient clinic is over 50 years old and was originally
designed as a hospital. Many clinic functions have been placed in areas formally used as
patient bed and operating rooms and connected by 8-foot corridors. This layout has
caused considerable space inefficiencies and fractured departments. Currently, patients
must travel greater distances between departments and often are confused when moving
around the facility. The current mechanical and plumbing systems are inefficient and
costly to maintain, causing frequent outages and emergency repairs. We reviewed
supporting documentation for the project requirement and cost estimates.

Requirements Were Documented
Personnel at AFMSA and the 28th Civil Engineer Squadron appropriately documented the
requirements for the Upgrade/Renovate Clinic Project. We reviewed documentation
supporting the project requirements and toured the clinic to inspect areas identified for
replacement or renovation. In addition, in 2007 an AFMSA Assessment Team reviewed
the infrastructure and functionality of the outpatient clinic and identified areas of concern
including the building infrastructure; patient and family access to outpatient services;
heating and air conditioning in the
communication server room; asbestos             Based on our review of planning
and radon; life and safety systems; and         documents, our on-site observations, and
space available for services such as            facility assessment studies, we determined
pharmacy, laboratory, and radiology.            that the Upgrade/Renovate Clinic Project
Based on our review of planning                 was a valid requirement and supports the
documents, our on-site observations, and        healthcare needs of the beneficiary
facility assessment studies, we                 population at Ellsworth AFB.
determined that the Upgrade/Renovate
Clinic Project was a valid requirement and supports the healthcare needs of the
beneficiary population at Ellsworth AFB.



                                             4
Cost Estimate Was Generally Supported
Based on supporting documentation, we determined that $15 million of the $16.5 million
project cost estimate was reasonable. Personnel at the 28th Civil Engineer Squadron
completed DD Form 1391, “Military Construction Project Data,” estimating the project
cost at about $15 million. Although the form is not dated, an approval signature is dated
April 7, 2009. While reviewing supporting documentation, we found an undated
DD Form 1391 for the project with a cost estimate of $16.5 million, an amount that
coincides with the total amount as listed in DoD’s expenditure plan for Recovery Act
projects. Personnel from the Air Force Surgeon General office, in collaboration with
AFMSA, increased the original estimate of $15 million by $1.5 million but could not
provide documentation supporting the additional cost.

Personnel at the USACE Fort Worth District developed an independent government
estimate of $14,947,727, including $398,239 for Initial Outfitting-Transition services.
According to FAR 15.305-1, “Proposal Evaluation,” competition normally establishes
price reasonableness, and when contracting on a firm-fixed-price basis occurs, the
proposed prices usually satisfy the requirement to perform a price analysis. Under the
MATOC, the solicitation to upgrade and renovate the clinic was open to three
contractors, each of whom submitted a firm-fixed-price proposal. Because multiple
proposals were submitted and competition can establish price reasonableness, we believe
the risk associated with the lack of supporting documentation for $1.5 million of the cost
estimate was mitigated and should not impede project implementation.

Funding: Recovery Act Funds Distributed Timely
Personnel at USACE Headquarters distributed Recovery Act funds to USACE Fort
Worth District in a timely manner, and the funding documents properly included a
Recovery Act designation. Funding documents indicated that USACE Headquarters
transferred Recovery Act funds in the amount of $16.5 million on May 22, 2009, to
USACE Fort Worth District, an amount consistent with the project estimate as stated in
the DoD Facilities Sustainment, Restoration, and Modernization Program Plan. On
October 30, 2009, after personnel at USACE Fort Worth District had expended
approximately $20,000 on planning and design, they transferred $16.48 million to
personnel at USACE Little Rock District to support the Upgrade/Renovate Clinic Project.
Current total obligations for the project are about $19.65 million. This includes
$16,277,907 of Recovery Act funds awarded to the contractor for the original task order,
a revised floor plan, dental equipment revisions, a corridor addition, replacement of all
basement piping, and $3,374,672 of Operations and Maintenance funds obligated for
Initial Outfitting-Transition services and asbestos abatement.

Execution: Project Execution Adequate
USACE Little Rock District personnel adequately performed the execution of the project.
Personnel competitively solicited the Request for Proposal and awarded the resulting task
order with full transparency to the public. Although initially containing improper Buy




                                            5
American Act FAR clauses, the task order was modified to include only required Buy
American Act FAR clauses for Recovery Act contract actions.

Personnel at USACE Little Rock District competitively awarded the task order at a
firm-fixed-price on October 31, 2009, consistent with the estimated time frame shown in
DoD’s Recovery Act expenditure plan. In addition, documents in the contract file
showed that United Excel Corporation, the contractor selected, was registered in the
Central Contractor Registration Web site and did not appear in the Excluded Parties List
System as an excluded or suspended contractor. Although Recovery Act implementing
guidance requires the posting of contracting actions on the Federal Business
Opportunities (FBO) Web site, personnel at USACE Fort Worth District did not post the
pre-solicitation on the FBO Web site. According to those personnel, there is an internal
process for Recovery Act project review prior to solicitation; however, the Request for
Proposal for this project was inadvertently released prior to the review, resulting in the
omission of the pre-solicitation posting. Personnel at USACE Fort Worth District did
post an award notice on the FBO Web site clearly stating the notice was provided for
informational purposes only. We are not addressing this as a transparency issue because
the opportunity was available only to contractors under the Southwestern District
MATOC for Construction and Design Build for Healthcare Facilities for the United
States Air Force Medical Services Agency, United States Army Medical Command, and
other customers of the United States Army Corps of Engineers.

The MATOC and the task order included the FAR clauses required by Recovery Act
implementation guidance, including those for whistleblower protection reporting, the
Davis-Bacon Act, and the Buy American Act. However, the task order included all
possible Recovery Act Buy American Act FAR clauses, not just the applicable clauses.
After we notified USACE Little Rock District personnel, they modified the task order in
June 2010 to eliminate the unnecessary clauses (FAR 52.225-21 and FAR 52.225-22).

Tracking and Reporting: Contractor Reported Required
Information
According to USACE Little Rock District personnel, procedures are in place to ensure
the contractor reports recipient information required by the Recovery Act. Prior to each
quarterly reporting period, personnel at USACE Little Rock District provide contractors
written notice of the reporting requirement and remind contractors of the applicable
suspense date. Personnel at USACE Little Rock District also review contractor reports
and notify contractors of discrepancies needing correction. In addition, USACE
Headquarters, Division, and District personnel monitor the reporting process. For the
third quarter of FY 2010, United Excel reported the recipient information required by the
Recovery Act, including the number of jobs and total dollar value for the project.




                                             6
Conclusion: Project Implementation
Generally Complied with Recovery Act
Requirements
We concluded that the Upgrade/Renovate Clinic Project was needed and generally
complied with guidance implementing the Recovery Act. Personnel at the 28th Civil
Engineer Squadron and AFMSA only partially supported the project cost estimates, but
by competitively awarding the task order, offset the risk associated with the unsupported
portion of the cost. Personnel at USACE Headquarters distributed Recovery Act funds to
USACE Fort Worth District in a timely manner, and the funding documents properly
included a Recovery Act designation. Personnel at USACE Little Rock District ensured
the project was executed in accordance with requirements of the Recovery Act, but
included some unnecessary Recovery Act Buy American Act FAR clauses. They later
modified the task order to delete the unnecessary FAR clauses; therefore, we are not
making any recommendations.




                                            7
Appendix. Scope and Methodology
We conducted this audit from September 2009 through August 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

The overall objective was to evaluate DoD’s implementation of plans for the Recovery
Act. To accomplish our objective, we audited the planning, funding, execution, and
tracking and reporting of Recovery Projects 109, 110, and 111, collectively implemented
as one Air Force project entitled “Upgrade/Renovate Clinic Project,” at Ellsworth AFB,
valued at $16.5 million. Specifically, we determined whether:

   •   the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
   •   funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
   •   contracts awarded were transparent, competed, and contained FAR clauses
       required by the Recovery Act (Project Execution); and
   •   recipients’ use of funds was transparent to the public; and the benefits of the funds
       were clearly, accurately, and timely reported (Reporting).

We interviewed personnel from TMA, AFMSA, USACE Little Rock District, USACE
Fort Worth District, and personnel from the 28th Civil Engineer Squadron, the
28th Comptroller Squadron, and the 28th Contracting Squadron at Ellsworth AFB. We
reviewed documentation from the official contract file, DD Forms 1391 and associated
support, cost estimates, funding authorization documents, statements of work, task
orders, and the MATOC. We also made observations of the Upgrade/Renovate Clinic
Project during a visit to Ellsworth AFB. We reviewed the FBO, Federal Procurement
Data System – Next Generation (FPDS), federalreporting.gov, and recovery.gov Web
sites for pre-solicitation, award postings, modifications, and reporting. We also reviewed
the Central Contractor Registration and the Excluded Parties List System Web sites for
information on the contractors. We reviewed Federal, DoD, Air Force, and
Ellsworth AFB guidance. Although we determined whether the contractor reported in
accordance with FAR 52.204-11, we did not validate the data reported by the contractor
to the Recovery Act Web site at this time. We plan to address the adequacy of recipient
reporting in a future DoD Office of the Inspector General report.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office of the Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects


                                             8
and locations using a modified Delphi technique, which allowed QMAD to quantify the
risk based on expert auditor judgment and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. QMAD selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations. Project 109 was included in the
83 selected projects, and Projects 110 and 111 were judgmentally selected for review
because they were jointly implemented under one contract together with Project 109.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by USACE.

Use of Computer-Processed Data
We relied on computer-processed data from the FBO and FPDS Web sites. FBO is a
single, Government-wide point-of-entry for Federal Government procurement
opportunities. The FPDS is a dynamic, real-time database in which contracting officers
can update data to include new actions, modifications, and corrections. We compared
data generated by each system with the appropriate DoD expenditure plans, funding
authorization documents, or project and contracting documentation to support the audit
conclusions. We determined that the data were sufficiently reliable for the purposes of
our report.

Prior Audit Coverage
The Government Accountability Office, the DoD Office of the Inspector General, and the
Military Departments have issued reports and memoranda discussing DoD projects
funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                             9
